<html>
<title> - TO PROVIDE FOR A COMPREHENSIVE STRATEGY TO COUNTER IRAN'S GROWING PRESENCE AND HOSTILE ACTIVITY IN THE WESTERN HEMISPHERE, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                TO PROVIDE FOR A COMPREHENSIVE STRATEGY 
                 TO COUNTER IRAN'S GROWING PRESENCE AND 
                    HOSTILE ACTIVITY IN THE WESTERN 
                   HEMISPHERE, AND FOR OTHER PURPOSES 

=======================================================================

                                 MARKUP

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 3783

                               __________

                             MARCH 1, 2012

                               __________

                           Serial No. 112-122

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



























                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina
































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 3783, To provide for a comprehensive strategy to counter 
  Iran's growing presence and hostile activity in the Western 
  Hemisphere, and for other purposes.............................     2
  Amendment in the nature of a substitute to H.R. 3783 offered by 
    the Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Jeff Duncan: Prepared statement....................    25

                                APPENDIX

Markup notice....................................................    36
Markup minutes...................................................    37


   TO PROVIDE FOR A COMPREHENSIVE STRATEGY TO COUNTER IRAN'S GROWING 
PRESENCE AND HOSTILE ACTIVITY IN THE WESTERN HEMISPHERE, AND FOR OTHER 
                                PURPOSES

                              ----------                              


                        THURSDAY, MARCH 1, 2012

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Edward 
R. Royce (chairman of the subcommittee) presiding.
    Mr. Royce. The subcommittee will come to order. Pursuant to 
notice, we meet today to mark up H.R. 3783, the Countering Iran 
in the Western Hemisphere Act of 2012. Without objection, the 
amendment in the nature of a substitute offered by Mr. Duncan, 
which incorporates changes from both sides of the aisle and was 
provided to your offices earlier this week and posted on the 
committee Web site, will be considered base text for purposes 
of this markup.
    The clerk will report the base text.
    Mr. Strupp. Amendment in the nature of a substitute to H.R. 
3783 offered by Mr. Duncan of South Carolina.
    Mr. Royce. Without objection, the text is considered read 
and is open for amendment at any point. And before proceeding 
to the ranking member and any other members seeking 
recognition, I recognize myself for a brief statement on the 
measure before us.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Royce. In recent years Iran has developed close ties 
with several leaders in the Western Hemisphere who share its 
violent anti-Americanism. And most recently Iranian President 
Ahmadinejad undertook his sixth visit to the hemisphere, 
undertaking what some in the press quipped a ``tyrant's tour'' 
of Venezuela, Nicaragua, Cuba, and Ecuador.
    The growing Iranian role in the Western Hemisphere has been 
the subject of several committee hearings and classified 
briefings. Many members are concerned, however, that the 
administration has not adequately examined or sought to counter 
Iran's growing and hostile diplomatic and intelligence presence 
in our hemisphere.
    Let's be clear. The Iranian threat isn't just thousands of 
miles away. It is close to home. Back in the 1990s, Iran was 
behind the bombings in Argentina. More recently, Hezbollah 
operatives have penetrated our borders. The Iranian attempt to 
assassinate the Saudi Ambassador on U.S. soil using a Mexican 
drug cartel is the latest demonstration of this threat.
    Indeed, recently testifying before Congress, the Director 
of National Intelligence stated that Iranian officials--I'll 
give his quote here--``have changed their calculus and are now 
willing to conduct an attack in the United States.'' The DNI 
went on to say that the Iranians are ``trying to penetrate and 
engage in this hemisphere.''
    Besides a potential platform to conduct terrorist attacks, 
some experts see other sources of motivation for closer Iranian 
links to the hemisphere. Many believe that the countries Iran 
is courting in the Western Hemisphere can help them circumvent 
sanctions.
    Testifying before Congress recently, one former U.S. 
official noted,

        ``The dangerous activities of Iran and Hezbollah so 
        near our borders demand a whole of government strategy 
        beginning with an interagency review to understand and 
        assess the transnational multifaceted nature of this 
        problem [and] to mobilize friendly governments to 
        respond.''

    This bill, H.R. 3783, the Countering Iran in the Western 
Hemisphere Act of 2012, authored by our colleagues Mr. Duncan 
of South Carolina and Mr. Higgins of New York, two members of 
the subcommittee, requires such a review and strategy and 
basically would kick the bureaucracy into gear. With 60 co-
sponsors, including myself, it deserves support. And I urge its 
passage.
    I remind the members of the committee that we will very 
soon have the last votes of this day on the floor. So brevity 
is appreciated. And, without objection, all members can submit 
their full statements for the record.
    I now recognize from the other side the member from Rhode 
Island for any remarks he may have before I turn to the 
legislation's author.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I, too, am concerned, I think, as most Americans, about the 
growing influence of Iran in the Western Hemisphere. And I 
think this is an issue which the President and the 
administration are taking very seriously and remain fully 
engaged in as they monitor these events and confront the 
growing threat of Iran around the world.
    And I think this legislation, of course, begins with an 
assessment by the Secretary of this threat, which I think is an 
important step. And I support the legislation and thank you for 
the opportunity to make some opening comments.
    Mr. Royce. I thank the gentleman from Rhode Island.
    Are there any other members who wish to strike the last 
word and speak on this measure?
    Mr. Duncan. Thank you, Mr. Chairman.
    I move to strike the last word and ask that my statement be 
submitted in its entirety into the record.
    Mr. Royce. That was brief. I think we are going to hold the 
vote open for a few minutes for our ranking member. I am going 
to allow Mr. Duncan, the author of the measure, then, to go 
ahead with the statement that he has submitted for the record 
if you want to elaborate on that at this moment.
    [The prepared statement of Mr. Duncan follows:]
 Prepared Statement of the Honorable Jeff Duncan, a Representative in 
               Congress from the State of South Carolina

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Duncan. Thank you, Mr. Chairman.
    Chairman Royce and Ranking Member Sherman and Mr. Cicilline from 
Rhode Island, I want to start by thanking you and your staff for the 
assistance on this legislation. I appreciate the bipartisan cooperation 
on the bill today. We have 63 members who have co-sponsored it.
    And, as you all know, this bill offers us an opportunity to work 
together with our allies and partners in the Western Hemisphere to 
identify the mutual threats to our interests and act together to 
protect those interests. And, just of note, I met with an Ambassador to 
Mexico to further that conversation to make sure that we all understand 
that this is our neighborhood and that we're working for mutual 
protection of our interest.
    And today one of the most subversive threats facing the U.S. and 
our neighbors comes from Iran's hostile activity and strategy influence 
in our hemisphere. The United States' vital political, economic, and 
security interest in the Western Hemisphere and Iran's penetration into 
the region represents a threat to the U.S. as well as the rest of the 
hemisphere.
    Today Iran has nearly doubled its number of Embassies in the region 
from 6 to 11. And President Ahmadinejad has also recently completed his 
sixth visit to the region. While Iran as a sovereign country does have 
the right to engage in public diplomacy, when its actions are hostile 
to American interests and incite anti-American views among our 
neighbors and would seek to use as influence to evade U.S. and 
international sanctions, we need to take notice. And we need to respond 
accordingly.
    Today the Iranian Revolutionary Guard's Corps elite Qods force 
stations operatives in foreign Embassies, charities, religious, and 
cultural institutions to build relationships with local population.
    As the chairman mentioned, Hezbollah, considered by the U.S. State 
Department as the most technically capable terrorist group in the 
world, tends to use sales that contain a recruitment entity, 
fundraising entity, and operational entity. While Hezbollah sales may 
focus primarily only on fundraising, in all cases, each Hezbollah 
operative has an operational mandate. In Mexico, we have seen evidence 
of Hezbollah's activity, the full Iranian plot just of this last June 
revealed by the administration publicly in October, as a prime example.
    The Univision documentary that was released in December on the 
Iranian threat, the established nexus between narcotrafficking and 
terrorism and sophisticated narco towing discovered along the U.S.-
Mexico border provide credible evidence for a concern that possible 
terrorist networks are engaging in our hemisphere and may be evidence 
that Mexican drug trafficking organizations are tapping in to 
Hezbollah's expertise in order to better transport drugs, people, and 
who knows what into the United States of America.
    We have also reason to suspect Iran has sought influence through 
Hezbollah in Canada. Most recently the USDA and Treasury Department's 
success in effectively shutting down the Lebanese Canadian Bank raises 
question on Iran's actions in Canada because the Lebanese Canadian 
Bank, formerly a subsidiary of the Royal Bank of Canada, also had 
offices in Montreal.
    Today many experts believe that Hezbollah is better established in 
North America and in the United States than any other terrorist 
organization in the world. With the connection between drugs, money, 
and terrorism, we have to wonder how many of these designated drug 
trafficking organizations are working with Hezbollah and other Arab 
networks here within the United States.
    Now, Congress had authorized trillions of dollars for military 
operations in the global war on terror in the last decade. Yet, Iran 
has steadily been establishing a presence here in our own neighborhood, 
from which it can exercise influence.
    What are we doing about it? Overestimating the threat does not 
serve the American people well, but underestimating the threat could 
bring great harm to the American people, to our friends in the region, 
and U.S. assets and to our allies here and abroad.
    So I believe this bill is necessary as a first step to redoubling 
our efforts to better understand the extent of the Iranian activity 
here at home by establishing a strong U.S. relationship with our 
neighbors. It requires an assessment of the threat and a strategy to 
counter Iran's hostile actions that protects the U.S. interests and the 
assets in the Western Hemisphere, addresses U.S. vital energy security 
interests, and calls for a secure U.S. border to prevent Iranian 
operatives from entering the United States.
    Just last month, the Director of DNI, James Clapper, testified that 
Iranian officials are ``more willing to conduct an attack in the United 
States in response to real or perceived U.S. actions that threaten the 
regime.''
    We need to be prepared with a strategy to counter Iran's hostile 
presence in our neighborhood. And I ask my colleagues to and I 
encourage you to please support the bill.
    And, with that, I yield back.
    Mr. Royce. I thank the gentleman. Your point about every agent 
having an operational mandate is a correct one. From our experience--
and I would just cite the example of Mahmoud Kourani, who successfully 
infiltrated our country over our southern border in the State of 
California. It was done through a process whereby he was put in the 
trunk of a car, brought into this country, reached the midwest before 
it was discovered that he and a host of fellow Iranian trained agents 
were here, over 50 in total.
    And here is what was interesting about the training. It wasn't 
just, as you mentioned, in fundraising. It was also in weapons 
training. It was also in explosives. It wasn't intelligence. It was the 
full range of how to show terror.
    And what is equally interesting to me is that his brother was 
General Kourani. General Kourani was in charge of the bombardment 
during the Israel-Hezbollah war. And I was up in Haifa in '06, when it 
was coming under attack. And I saw the effectiveness of these Hezbollah 
operatives as they were working, you know, these missiles that had been 
given to them by Iranian and Syrian forces. And the thought that the 
brother of that individual was able to go into a consulate in Beirut 
and pay a $5,000 bribe, in this case to an official from Mexico in 
order to get the phony documentation to go into Mexico and then would 
link up with one of these cartels that move people through the border 
in order to get through our southern border and the fact that we 
wouldn't find him until--I think he was up in Detroit when he was 
finally apprehended. Of course, he and these other individuals 
subsequently were convicted, but it shows the necessity of having this 
legislation. And I am going to turn to the gentleman of Ohio, Mr. 
Johnson, for any remarks he might want to make.
    Mr. Johnson. I thank you, Mr. Chairman.
    I appreciate, first of all, my colleague from South Carolina for 
offering H.R. 3783, the Countering Iran in the Western Hemisphere Act 
of 2012.
    This is a very, very important piece of legislation. We have seen 
increasing evidence. We have known it for a long time, but it is 
becoming increasingly evident to the rest of the world, certainly to 
the American people, of Iran's intentions to negatively impact the 
freedoms and the liberties that we enjoy here in America.
    And so I stand in full support of this piece of legislation. And I 
again want to thank my colleague for introducing it.
    Mr. Royce. I thank the gentleman from Ohio.
    Hearing no further requests to speak, are there any amendments?
    [No response.]
    Mr. Royce. Hearing no further amendments, the question is on 
agreeing to the amendment in the nature of a substitute. All of those 
in favor say aye.
    [Chorus of ayes.]
    Mr. Royce. All those opposed?
    [No response.]
    Mr. Royce. In the opinion of the Chair, the ayes have it. And the 
amendment in the nature of a substitute is agreed to. Without 
objection, the bill, as amended, will be reported favorably to the full 
committee in the form of a single amendment in the nature of a 
substitute. And the staff is directed to make any technical and 
conforming amendments.
    We are not going to adjourn because our ranking member I believe 
wanted to say a few remarks, make a few brief remarks on this 
legislation.
    Mr. Sherman. Thank you, Mr. Chairman.
    This bill is so important that I felt my opportunity to pontificate 
on it was less important than moving it as quickly as possible. As you 
know, you wanted to schedule this hearing at a time when I couldn't be 
here.
    Mr. Royce. However, without objection----
    Mr. Sherman. I made it in time to----
    Mr. Royce. You did.
    Mr. Sherman [continuing]. Thank you for your decision to schedule 
the meeting at a time when you could move this bill.
    Mr. Royce. If I could interrupt? Without objection, I would like to 
move for a revote. And at the same time, I am going to yield to the 
ranking member for his opening statement.
    Mr. Sherman, we're fine. We've got over 10 minutes before the 
clock.
    Mr. Sherman. I thank the chairman for his indulgence.
    I have long advocated the strongest possible sanctions on Iran due 
to its terrorism. And perhaps the greatest example of the worldwide 
ambitions of Iran took place in the early 1990s when they attacked the 
Israeli Embassy in Argentina and the Jewish Cultural Center there as 
well.
    But just recently Iranian agents planned to kill a Saudi Ambassador 
on U.S. soil. This demonstrates that Iran is not content to make 
mischief in the old world. They have come to our hemisphere as well. I 
believe the strongest possible sanctions and the maximum possible 
diplomatic isolation of Iran--that's why I am glad that just yesterday 
Ben Bernanke said that he would use his voice and vote to assert a 
supervisorial role over the Swiss system to prevent Iranian banks from 
conducting business with banks around the world providing he had a 
clear indication from those concerned with national security that that 
was indeed a good U.S. policy.
    Then in this room just yesterday Secretary Clinton in response to 
my question said, ``Yes, indeed, that would be a furtherance of U.S. 
policy.''
    And we need the strongest possible sanctions. Last year I 
introduced the Stop Iran's Nuclear Weapons Program Act, much of which 
has been included in legislation passed by the House through the Iran 
Threat Reduction Act.
    The legislation will hopefully be the subject of a conference once 
the Senate passes its version. The Iran Threat Reduction Act includes 
the toughest sanctions yet on the Iran Revolutionary Guard Corps and 
the Qods Force. And these are among the provisions I authored.
    I am currently compiling provisions that didn't make it into ITRA 
along with other provisions in a new package, which I will introduce 
soon. And my goal is to keep introducing the strongest possible 
sanctions bills against Iran until that government changes its 
policies.
    Since 2003, I have worked with Chairman Royce on this subcommittee, 
where we have focused on so many issues of proliferation. And I am 
perhaps more concerned about those impending votes than our chairman. 
So I will put the rest of the statement in the record and thank him for 
his decision to revote our action here.
    Mr. Royce. Well, I thank the ranking member.
    And, without objection, we will void the prior vote and consider 
the question de novo. The question is on agreeing to the amendment in 
the nature of a substitute. All of those in favor say aye.
    [Chorus of ayes.]
    Mr. Royce. All those opposed, no?
    [No response.]
    Mr. Royce. In the opinion of the Chair, the ayes have it. And the 
amendment in the nature of a substitute is agreed to. Without 
objection, the bill, as amended, will be reported favorably to the full 
committee in the form of a single amendment in the nature of a 
substitute. And the staff is directed to make any technical and 
conforming amendments.
    That concludes our business. The subcommittee stands adjourned.
    [Whereupon, at 10:25 a.m., the subcommittee was adjourned.]
                                     

                                     



























                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
